           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
    COMPLIANCE WITH SOCIAL SECURITY
   NUMBER REPLACEMENT CARD ISSUANCE
  PROVISIONS OF THE INTELLIGENCE REFORM
   AND TERRORISM PREVENTION ACT OF 2004

       March 2010     A-02-09-19006




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
M EM ORANDUM

Date:      March 4, 2010                                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration's Compliance with Social Security Number
           Replacement Card Issuance Provisions of the Intelligence Reform and Terrorism
           Prevention Act of 2004 (A-02-09-19006)


           OBJECTIVE

           To determine whether the Social Security Administration (SSA) complied with
           provisions of the Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA)
           (Public Law 108-458), which set limits on the number of Social Security number (SSN)
           replacement cards that can be issued.

           BACKGROUND
           On December 17, 2004, the President signed IRTPA into law. Section 7213(a) of
           IRTPA mandates that SSA restrict the issuance of multiple replacement SSN cards to
           any individual to 3 per year and 10 for life. IRTPA gives SSA the authority to allow for
           reasonable exceptions to the replacement card limits on a case-by-case basis in
           compelling circumstances. 1

           SSA established policies and procedures to comply with IRTPA SSN replacement card
           restrictions and started imposing limits for replacement cards issued on or after
           December 17, 2005. 2 SSN replacement cards provided for certain reasons, such as a




           1
               IRTPA, Pub. L. No. 108-458 § 7213(a)(1)(A).
           2
             Annual card limits are calculated based on a calendar year (CY). The first CY count was from the date
           of IRTPA’s implementation, December 17, 2005, to December 31, 2005. The second CY count was for
           the full CY 2006.
Page 2 - The Commissioner


legal name change 3 or legend change 4 on a previously issued card, are not counted
toward the annual or lifetime limits.

SSA also allows reasonable exceptions to the annual and lifetime limits. SSA created
the following exceptions for the release of an SSN replacement card to an individual
who has already reached his or her annual or lifetime limit.

    •   Legal name change (including first name or surname)
    •   Legend change (a restrictive legend printed on the face of the SSN card is
        removed/added/changed)
    •   SSA mistake (administrative errors)
    •   Hardship
    •   Non-receipt (a non-receipt request must be completed within 45 days of
                                                                    5
        issuance of the previous SSN card to count as an exception)

The SS-5 Assistant software, through the Modernized Enumeration System (MES),
tracks the number of replacement SSN cards an individual receives and generates an
on-screen alert when the 3-card annual or 10-card lifetime limit has been met. To
release a replacement card after the limits have been met, SSA staff must enter a code
indicating which of the exceptions has been met.

To determine whether SSA was complying with IRTPA replacement card restrictions,
we reviewed all enumeration transactions for individuals who received additional
replacement SSN card(s) after reaching the annual or lifetime limit since the date of
IRTPA’s enactment. We identified 1,632 individuals who were issued 4 or 5 SSN
replacement cards in a year. We randomly selected a sample of 50 individuals who
received 4 or 5 replacement cards in a year and reviewed all the related enumeration
transactions to identify any cards issued in error. We also reviewed all nine individuals
who received six or more cards in a year and all eight individuals who received four or
five replacement cards in multiple years. In total, we reviewed 67 sampled records.
Additional details of our scope and methodology are found in Appendix B.


3
 A name change is considered to be a change to the first name or surname (or both) when compared to
prior SSN card data. A change to the middle name (or middle initial) is not considered a name change.
4
  SSA verifies all immigration documents before assigning SSNs to non-citizens in coordination with the
Department of Homeland Security (DHS) and other agencies. To determine whether an exception to the
IRTPA limits is allowable because of a legend change, an individual must have a change in immigration
status or citizenship that results in a change to, or the removal of, a restrictive legend when compared to
the prior SSN card. An SSN card request based on a change in immigration status or citizenship that
does not affect the restrictive legend will count toward the annual and lifetime limits, as in the case of
Permanent Resident Aliens who attain U.S. citizenship.
5
 Until May 11, 2008, a non-receipt request had to be completed within 30 days of issuance of the previous
SSN card to count as a valid exception. Effective May 12, 2008, non-receipt requests completed within
45 days are counted as an exception.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA generally complied with the SSN replacement card provisions of IRTPA. However,
improvements in systems controls over the processing of SSN replacement card
requests will help SSA obtain full compliance with these provisions. We identified a
number of individuals who received SSN replacement cards beyond the 3-per-year limit
established in IRTPA without a valid exclusion or exception. Twenty-nine (58 percent)
of the 50 individuals in our random sample received 4 or 5 SSN replacement cards in
1 year even though they did not have a valid exclusion or exception for the additional
cards. They received additional replacement cards beyond their annual limit for one of
two reasons: (1) SSA's systems detected a change in the type of evidence submitted
to obtain an SSN card as an allowable legend change exclusion, or (2) SSA issued
replacement cards beyond the time limit permitted under the non-receipt exception.
Projecting this finding to the population, we estimate that SSA erroneously issued SSN
replacement cards to 947 individuals after they reached their annual limit.

We also identified 17 individuals who received either 6 or more cards in a year or 4 or
more cards in each of 2 CYs. We determined that 12 (70 percent) of these
17 individuals received 1 or more replacement SSN cards in error.

We did not find any individuals who exceeded the lifetime limit of 10 replacement cards.

ANNUAL LIMIT ON SSN REPLACEMENT CARDS

Of the 67 sample records we reviewed, 41 individuals (61 percent) received SSN cards
in error. These 41 individuals either had a replacement card that was improperly
excluded from the count of cards allowed in a year or were improperly excepted after
they reached their annual limit. Twenty-two of these individuals 6 received the
erroneous cards because of an error in the system programming SSA uses to process
SSN replacement card requests. In these cases, the cards were released based on a
legend change exclusion 7 even though the replacement cards did not result in a
removal, addition, or change to a restrictive legend on the face of the SSN card. Per

6
  These 22 individuals consisted of 18 individuals we identified in our random sample of 50 individuals who
received 4 or 5 replacement cards in 1 year and 4 individuals we identified from a separate review of
17 individuals who either were issued 6 replacement cards in a year or exceeded the annual limit in
multiple years.
7
  Replacement SSN cards provided for certain reasons, including a restrictive legend change on a
previously issued card, are not counted toward the annual or lifetime limits or can be exceptions to the
limits once they have been reached. A legend change will not count toward the annual limit if the
individual has a change in immigration status or citizenship that results in a change to, or the removal of, a
restrictive legend when compared to the prior SSN card. For example, adding or deleting the phrase
“Valid for Work Only with DHS Authorization” or “Not Valid for Employment” from the face of an SSN card
because of a change in immigration status would not count toward the annual or lifetime limits or would be
a valid exception once a limit had been reached. However, a replacement SSN card request based on a
change in immigration status or citizenship that does not affect the restrictive legend on the face of the
card would count toward the annual and lifetime limits, as in the case of Permanent Resident Aliens who
attain U.S. citizenship.
Page 4 - The Commissioner


SSA policy, only legend changes that result in a change to a restrictive legend on the
face of an SSN card are to be excluded or excepted from the IRTPA limits.

The remaining 19 individuals 8 received SSN replacement cards beyond the annual limit
based on an erroneous non-receipt exception. In these cases, the individuals received
replacement cards based on a claim that they did not receive their previously requested
replacement card. However, the erroneously released cards were beyond the allowable
time limit. The majority of these individuals was issued replacement cards more than
90 days after their previous requests. One individual received a non-receipt exception
183 days after his original request.

Legend Changes

We found that the MES, which processes SSN replacement card requests, counted all
evidence (IDN) code changes as restrictive legend changes. SSA asks all applicants
for SSN replacement cards about their immigration or citizenship status to ensure they
are eligible to receive an SSN card. IDN codes in the MES indicate the type of IDN
applicants provided to support their allegation of citizenship and place of birth. While
an IDN code change may indicate a change in an applicant’s immigration status or
citizenship that results in a change to a restrictive legend, not all IDN changes indicate
such a change. The IDN code in the MES can change from one SSN card request to
the next simply because the applicant used a different type of IDN for each request.
For example, an IDN code could change from one replacement SSN card request to
the next if the applicant presented a birth certificate as identification when making the
first request and a driver’s license when making the second request.

SSA’s Office of Systems created automated controls in MES to ensure that only
allowable exceptions to the SSN replacement card limits were processed. However,
Systems staff confirmed that the MES was programmed to accept all IDN code
changes as restrictive legend change exceptions to the IRTPA limits. The Systems
staff stated that they made the MES changes based on the system requirements in the
Request for Operational Support provided by the Office of Management and Operations
Support, a division of SSA’s Office of Operations. We confirmed that the Request for
Operational Support stated that SSN replacement card requests with an IDN code
change should not be counted toward the annual or lifetime IRTPA limits. Accordingly,
the system’s programming was consistent with the directions received, though it
allowed some replacement card requests that were not restrictive legend changes to be
improperly excluded or excepted from the IRTPA limits.




8
 These 19 individuals consist of 11 individuals we identified from our random sample of 50 individuals
who received 4 or 5 replacement cards in 1 year and 8 individuals we identified from a separate review of
17 individuals who either were issued 6 replacement cards in a year or exceeded the annual limit in
multiple years.
Page 5 - The Commissioner


Non-Receipt Exceptions

Although a report of a non-receipt of a replacement card is one of the allowable
exceptions after reaching the IRTPA limits, it is only a valid exception per SSA policy if
the request is completed within 45 days of the previous request for a card. SS-5
Assistant—the application SSA staff use to enter required MES information to process
requests for replacement cards—requires that SSA staff enter an exception code
before allowing a request to be completed if the applicant has reached his/her annual or
lifetime limit for replacement cards. We found that SSA staff could enter, and the SS-5
Assistant would accept, a non-receipt exception code that allows the request to be
completed even if the previous request for an SSN replacement card was more than
45 days earlier.
                                                                                                    9
SSA is phasing in a new program—the Social Security Number Application Process
(SSNAP)—which will replace the current SS-5 Assistant and MES by the spring of
2010. SSA staff informed us the new program will produce a system alert that will
inform SSA staff if they are entering a non-receipt exception code more than 45 days
after the date of the previous card request. However, the alert will not prevent SSN
replacement card requests from being processed if staff should still use the non-receipt
exception code even after they were alerted that it is not applicable because of the
elapse of time.

EFFECTS OF ISSUING REPLACEMENT CARDS ERRONEOUSLY

SSN cards obtained by an individual other than the one for whom it was intended may
                                                               10
be misused for employment. We identified 17 of 87 individuals who appeared to have
questionable earnings posted under their SSNs. These individuals appeared to have
multiple earnings from various employers, often geographically spread, for different
types of employment. For example, one SSN showed earnings related to casino and
resort operations in New Jersey, manufacturing in Ohio, and poultry processing in
North Carolina in the same year.

Per our request, SSA attempted to contact these 17 individuals, but it was only able to
contact 3. SSA confirmed that one of the three individuals acknowledged the earnings
posted on his record did not belong to him. 11 The other two individuals interviewed
9
  SSNAP is a Web-based application scheduled to replace the SS-5 Assistant application and MES.
Some field offices participated in an early phase-in in September 2009. The remaining offices will phase-
in the use of SSNAP by the spring of 2010. All pending cases in the SS-5 Assistant and MES will transfer
to SSNAP once implemented.
10
  The 17 individuals who appeared to have questionable earnings were from 2 distinct populations.
Seven of the 17 individuals were from our sample of 67 individuals who received 4 or more replacement
cards in a year. The remaining 10 of the 17 individuals were identified in an forensic analysis we
completed of 20 individuals who received 4 or more replacement cards in 1 year at an address where
another unrelated individual received an SSN card in that same year.
11
  SSA confirmed that the inaccurate earnings were for an out-of-State employer for which the individual
did not work. Also, the type of business did not coincide with the individual’s previous work history.
Page 6 - The Commissioner


stated that the posted earnings were correct. SSA could not confirm whether the
questionable earnings for the remaining 14 individuals belonged to them.

CONCLUSION AND RECOMMENDATIONS
SSA generally complied with the SSN replacement card provisions of IRTPA. However,
improvements in systems controls over the processing of SSN replacement card
requests will help SSA obtain full compliance with these provisions. SSA issued
individuals one or more replacement SSN cards in error since its systems
inappropriately detected a type of evidence change as a legend change. However, an
IDN change gives rise to a valid exclusion only when a restrictive legend is added or
removed from the previously issued SSN card. Also, while SSA’s policy states that a
non-receipt exception is only valid within 45 days of a previous request, its systems
accepted non-receipt exceptions as valid beyond 45 days of a previous request for an
SSN replacement card. To help accurately limit the number of SSN replacement cards
issued in a year and/or lifetime and curb SSN misuse, we recommend that SSA:

1. Ensure its systems allow legend change exclusions to IRTPA annual and lifetime
   limits only when a restrictive legend on the face of an SSN card has been changed
   or removed.

2. Ensure its systems only allow non-receipt exceptions to IRTPA annual and lifetime
   limits for non-receipt claims that occur within 45 days of the previous request for an
   SSN replacement card. In the rare instances where a valid justification for allowing
   a non-receipt claim beyond 45 days of the previous request exists, ensure that the
   justification is documented within SSA’s systems. (For example, SSA could use a
   two-personal identification number process requiring management personnel to
   approve such transactions.)

AGENCY COMMENTS

The Agency agreed with our recommendations (see Appendix C).




                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology, and Sample Results
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CY      Calendar Year
DHS     Department of Homeland Security
IDN     Evidence
IRTPA   Intelligence Reform and Terrorism Prevention Act of 2004
MES     Modernized Enumeration System
PIN     Personal Identification Number
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security Number
SSNAP   Social Security Number Application Process
                                                                                 Appendix B

Scope, Methodology, and Sample Results
Our objective was to determine whether the Social Security Administration (SSA)
complied with provisions of the Intelligence Reform and Terrorism Prevention Act of
2004 (IRTPA) (Public Law 108-458), which set limits on the number of Social Security
number (SSN) replacement cards that can be issued. To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and other relevant
    legislation as well as SSA’s regulations, rules, policies, and procedures.

•   Obtained a data file of 41,821 records extracted from the Enumeration History File
    for individuals with 4 or more replacement SSN card transactions per calendar year
    or 10 or more transactions beginning with cards issued on or after December 17,
    2005 to the time of our extract (March 14, 2008). We eliminated records where a
                           1                       2
    card was not printed, a card was suppressed, and/or a duplicate reference number
    existed. We also removed transactions processed within 7 days of the prior
    transaction since these transactions do not result in the printing of an SSN card.
    After we eliminated these records, 10,383 records remained. We then determined
    how many of these individuals were issued more than three SSN replacement cards
    in a year.

•   Identified a population of 1,649 individuals who were issued more than
    3 replacement cards in a year. These individuals were issued a total of 6,748 cards
    between December 17, 2005 and March 14, 2008. We further classified this
    population into 3 groups and reviewed 67 sampled records:

       a random sample of 50 of the 1,632 individuals with 4 or 5 replacement cards
        issued in a year,
       all 9 individuals with 6 replacement cards issued in a year, and
       all 8 individuals who exceeded the annual limit in multiple years.

•   Identified individuals who appeared to be issued one or more additional SSN
    replacement cards beyond the IRTPA annual limit.


1
 We eliminated records without a Print Date present. These are considered “Numident only” entries since
a physical SSN card was not printed as a result of these transactions.
2
  Apart from the “Numident only” records, we also eliminated records where the Card Code was “yes” or
blank, which means that the card was suppressed, so a physical SSN card was not printed as a result of
these transactions.


                                                  B-1
•   Referred our findings to SSA staff. Through our discussions with the staff and their
    review of the records we identified, we determined why SSA’s systems allowed SSN
    replacement cards to be released beyond the IRTPA annual limit.

•   Identified 17 individuals who appeared to have questionable earnings. We
    considered the earnings questionable if there were earnings from various employers
    spread geographically and/or for different types of employment. These
    17 individuals were identified in 2 different subsets of the population of
    1,649 individuals who received 4 or more replacement SSN cards in a calendar
    year. Seven of the 17 individuals were from our sample of 67 individuals who
    received 4 or more replacement cards in a year. The remaining 10 of the
    17 individuals were identified in an forensic analysis we completed of 20 individuals
    who received 4 or more replacement cards in a year at an address where another
    unrelated individual received an SSN card in that same year.

•   SSA field office staff attempted to contact the 17 individuals, but they were only able
    to interview 3 of the 17. SSA could not contact the remaining 14 individuals, so we
    were unable to determine whether the questionable earnings belonged to these
    individuals. SSA confirmed that the earnings posted for one of the three individuals
    contacted did not belong to the SSN holder. The inaccurate earnings were for an
    out-of-State employer for which the individual did not work. Also, the type of
    business did not coincide with the individual’s previous work history. The other two
    individuals interviewed stated that the posted earnings were correct.

•   Reviewed Enumeration History File transactions to determine whether certain field
    office codes and employee Personal Identification Numbers (PIN) appeared in the
    data more than expected. We referred all enumeration transactions processed
    under seven employees’ PINs who issued more replacement cards than other PINs
    in our data. SSA referred two of these employees to the Office of the Inspector
    General’s Office of Investigations for further review.

We conducted our audit in the New York Audit Division between June and
October 2009. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were the Office of
Earnings, Enumeration and Administrative Systems under the Deputy Commissioner for
Systems; and the Offices of Public Services and Operations Support and Management
and Operations Support under the Deputy Commissioner for Operations. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                            B-2
SAMPLE RESULTS

Projecting our findings to the population of 1,632 individuals, we estimate SSA
erroneously issued replacement SSN cards to 947 individuals after reaching their
annual or lifetime limit—588 individuals because of improper detection of a type of
evidence code as a “legend” change, and 359 additional individuals received 1 or more
replacement cards under non-receipt claims filed more than 45 days after the original
SSN card requests.

Table B-1 – Individuals Who Received Four or Five SSN Replacement Cards in
1 Year

   Description                                                            Number of Recipients
   Population Size (Universe Size)                                               1,632
   Sample Size                                                                      50

Table B-2 – Number of Individuals Who Received SSN Replacement Cards in
Error Because of Improper Detection of an Evidence Code Change as a Legend
Change
   Description                                                            Number of Recipients
   Quantity Identified In Sample                                                    18
   Projected Quantity In Universe                                                  588
   Projection - Lower Limit                                                        406
   Projection - Upper Limit                                                        789
    Note: All statistical projections are at the 90-percent confidence level.

Table B-3 – Number of Individuals Who Received SSN Replacement Cards
in Error Due to Non-receipt Claims Filed More Than 45 Days after Original
Request

   Description                                                          Number of Beneficiaries
   Quantity Identified In Sample                                                    11
   Projected Quantity In Universe                                                  359
   Projection - Lower Limit                                                        212
   Projection - Upper Limit                                                        548
    Note: All statistical projections are at the 90-percent confidence level.

In addition to the sample review described above, we reviewed all 17 individuals who
received 6 or more cards in a year and those who received 4 or 5 cards during each of
2 calendar years. Of these 17 individuals, we determined that 12 (70 percent) received
one or more replacement SSN cards in error. These 17 individuals were issued a total
of 25 cards in error, since some received more than 1 card in error.




                                                    B-3
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      February 12, 2010                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Dean Landis for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “SSA’s Compliance with Social Security
           Number Replacement Card Issuance Provisions of the Intelligence Reform and Terrorism
           Protection Act of 2004” (A-02-09-19006)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“SSA'S COMPLIANCE WITH SOCIAL SECURITY NUMBER (SSN) REPLACEMENT
CARD ISSUANCE PROVISIONS OF INTELLIGENCE REFORM AND TERRORISM
PROTECTION ACT (IRTPA) OF 2004” (A-02-09-19006)


Below please find our comments to the draft report findings and recommendations.

Recommendation 1

Ensure its systems allow legend change exclusions to IRTPA annual and lifetime limits only
when a restrictive legend on the face of an SSN card has been changed or removed.

Comment

We agree. We will make system changes as resources permit.

Recommendation 2

Ensure its systems only allow non-receipt exceptions to IRTPA annual and lifetime limits for
non-receipt claims that occur within 45 days of the previous request for an SSN replacement
card. In the rare instances where a valid justification for allowing a non-receipt claim beyond 45
days of the previous request exists, ensure that the justification is documented within SSA’s
systems. (For example, SSA could use a two-personal identification number process requiring
management personnel to approve such transactions.)

Comment

We agree. We will make system changes as resources permit.




                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   James Kim, Senior Analyst

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-19006.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
